Appendix A

United States v. Quintero, 995 F.3d 1044 (2021)
21 Cal. Daily Op. Serv. 4181, 2021 Daily Journal D.A.R. 4057

995 F.3d 1044
United States Court of Appeals, Ninth Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
Sonia QUINTERO, Defendant-Appellant.
No. 19-10300
|
Argued and Submitted November
17, 2020 Phoenix, Arizona
|
Filed April 29, 2021
Synopsis
Background: In prosecution for conspiracy to possess with
intent to distribute and possession with intent to distribute
marijuana, the United States District Court for the District
of Arizona, James A. Soto, J., 2019 WL 3973706, denied
defendant's objection to the order of Leslie A. Bowman,
United States Magistrate Judge, finding that defendant
was incompetent to stand trial and ordering commitment
for inpatient competency restoration treatment. Defendant
appealed.

Holdings: The Court of Appeals, Bybee, Senior Circuit
Judge, held that:
inpatient commitment is required under Insanity Defense
Reform Act (IDRA);
mandatory commitment for competency restoration
assessment and treatment does not violate substantive due
process;
IDRA does not violate procedural due process; and
defendant was not similarly situated to pretrial detainees who
were denied bail, for equal protection purposes.
Affirmed.
Procedural Posture(s): Appellate Review; Pre-Trial Hearing
Motion.

*1048 Appeal from the United States District Court for
the District of Arizona, James Alan Soto, District Judge,
Presiding, D.C. No. 4:17-cr-01895-JAS-LAB-1
Attorneys and Law Firms
M. Edith Cunningham (argued) and James D. Smith,
Assistant Federal Public Defenders; Jon M. Sands, Federal
Public Defender; Office of the Federal Public Defender,
Tucson, Arizona; for Defendant-Appellant.
Shelly K.G. Clemens (argued), Assistant United States
Attorney; Christina M. Cabanillas, Deputy Appellate Chief;
Michael Bailey, United States Attorney; United States
Attorney's Office, Tucson, Arizona; for Plaintiff-Appellee.
Before: Richard C. Tallman, Jay S. Bybee, and Bridget S.
Bade, Circuit Judges.

OPINION
BYBEE, Circuit Judge:
Sonia Quintero was found incompetent to stand trial and was
committed to the custody of the Attorney General pursuant
to 18 U.S.C. § 4241(d) for assessment of her potential
for restoration to competency. Under Department of Justice
policy, Quintero was to be hospitalized in an inpatient facility
for evaluation and treatment. Quintero argues that the district
court should have ordered evaluation and treatment in an
outpatient facility and that her commitment violates her
statutory and constitutional rights.
We affirm the district court's commitment order.

I. PROCEDURAL HISTORY
In December 2017, Quintero was charged in the District of
Arizona with conspiracy to possess with intent to distribute
and possession with intent to distribute marijuana, in violation
of 21 U.S.C. § 841(a)(1) and 841(b)(1)(B)(vii). During
pretrial proceedings, Quintero filed a motion to determine
competency, along with a neuropsychological evaluation
concluding that Quintero was incompetent to stand trial due
to cognitive impairment resulting from severe traumatic brain
injury and that she was not restorable to competency. The
magistrate judge ordered a second psychiatric evaluation,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Quintero, 995 F.3d 1044 (2021)
21 Cal. Daily Op. Serv. 4181, 2021 Daily Journal D.A.R. 4057

which concluded that Quintero was incompetent to stand trial
but was restorable to competence.
After an evidentiary hearing with testimony from both
evaluators, the magistrate judge agreed that Quintero was
not competent to stand trial, but determined that she was
likely restorable to competence. 1 *1049 Quintero objected
to mandatory commitment for competency restoration
and instead requested outpatient treatment. However, the
magistrate judge found that commitment was mandated by 18
U.S.C. § 4241(d) and ordered her committed to the custody
of the Attorney General.
1

incompetent to the extent that he is unable to understand
the nature and consequences of the proceedings against him
or to assist properly in his defense, the court shall commit
the defendant to the custody of the Attorney General.
The Attorney General shall hospitalize the defendant for
treatment in a suitable facility–
(1) for such a reasonable period of time, not to exceed
four months, as is necessary to determine whether there
is a substantial probability that in the foreseeable future
he will attain the capacity to permit the proceedings to
go forward; and
(2) for an additional reasonable period of time until–

We note that the second half of the magistrate
judge's finding exceeded the scope of § 4241(d),
which only authorizes the court to determine
whether the defendant is suffering from a mental
disease or defect that renders him incompetent to
stand trial, not whether the defendant is restorable
to competency at that point in the proceedings.
This extraneous finding does not affect our analysis
here.

Quintero objected to the magistrate judge's order, but
the district court overruled the objection. Quintero timely
appealed.

II. JURISDICTION AND STANDARD OF REVIEW
We have jurisdiction under 28 U.S.C. § 1291 and pursuant
to the collateral order doctrine. United States v. Friedman,
366 F.3d 975, 980 (9th Cir. 2004). We review challenges to
the constitutionality of a statute and questions of statutory
construction de novo.
United States v. Strong, 489 F.3d
1055, 1060 (9th Cir. 2007); United States v. Kowalczyk, 805
F.3d 847, 856 (9th Cir. 2015).

III. DISCUSSION
The Insanity Defense Reform Act (IDRA), 18 U.S.C. §§
17, 4241–47, governs pretrial competency evaluation and
restoration. Section 4241 provides in relevant part:
If, after the hearing, the court finds by a preponderance
of the evidence that the defendant is presently suffering
from a mental disease or defect rendering him mentally

(A) his mental condition is so improved that trial may
proceed, if the court finds that there is a substantial
probability that within such additional period of time
he will attain the capacity to permit the proceedings
to go forward; or
(B) the pending charges against him are disposed of
according to law;
whichever is earlier.
18 U.S.C. § 4241(d).
Quintero raises seven distinct challenges to her mandatory
inpatient commitment under § 4241(d). She argues: (1)
§ 4241(d) grants the district court discretion to order
a specific form of treatment, and the policies of the
Attorney General and Bureau of Prisons (BOP) violate
the Constitution; mandatory commitment violates (2) due
process, (3) equal protection, (4) fundamental fairness, (5)
the Sixth Amendment, and (6) the Eighth Amendment; and
(7) mandatory commitment discriminates on the basis of
disability in violation of the Rehabilitation Act and the
Americans with Disabilities Act. None of these arguments is
persuasive.
*1050 A. Statutory Construction
1. District Court Discretion under 18 U.S.C. § 4241
Quintero argues that § 4241(d) grants the district court
discretion to order outpatient competency restoration
assessment and treatment. This contention is meritless. The
statute is clear that upon finding a defendant mentally
incompetent to stand trial, “the court shall commit the
defendant to the custody of the Attorney General” and

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Quintero, 995 F.3d 1044 (2021)
21 Cal. Daily Op. Serv. 4181, 2021 Daily Journal D.A.R. 4057

that “[t]he Attorney General shall hospitalize the defendant
for treatment in a suitable facility.” 18 U.S.C. § 4241(d);
see
Strong, 489 F.3d at 1057 (holding that mandatory
commitment under § 4241(d) does not violate due process).
The district court's responsibility is to make the appropriate
determination that the defendant is mentally incompetent. The
court has no role in determining the “suitable facility.”
Other provisions of the IDRA support this construction of §
4241(d). For an initial psychological evaluation of a pretrial
defendant—the step before commitment for competency
restoration evaluation—Congress employed almost identical
language to § 4241(d), except that it used the permissive
verb “may” in § 4247(b). See 18 U.S.C. § 4247(b) (“[T]he
court may commit the person to be examined for a reasonable
period ... to the custody of the Attorney General for placement
in a suitable facility.”) (emphasis added)). And the IDRA
provides that upon restoration of competency, “the court shall
order his immediate discharge from the facility in which he
is hospitalized.” Id. § 4241(e) (emphasis added). In order
for Quintero's proposed reading of § 4241(d)—that “shall”
means “may”—to be consistent, we would have to read §
4241(e) to be permissive as well, a reading we are confident
Quintero would not support. If there is discretion here, it
rests with the Attorney General, as elsewhere the IDRA
provides that the Attorney General “shall ... consider the
suitability of the facility's rehabilitation programs in meeting
the needs of the person” and “may contract with a State,
a political subdivision, a locality, or a private agency for
the confinement, hospitalization, care, or treatment of, or the
provision of services to, a person committed to his custody.”
Id. § 4247(i)(A), (C).
Quintero attempts to draw inferences from definitions of
“custody” and “hospitalize” in other statutes. We need not
consider these, because any such inferences are irrelevant
where, as here, the language of the statute is unambiguous.
Hughes Aircraft Co. v. Jacobson, 525 U.S. 432, 438,
119 S.Ct. 755, 142 L.Ed.2d 881 (1999) (“[W]here the
statutory language provides a clear answer, [the inquiry] ends
there ....”).
We hold that § 4241(d) mandates that district courts commit
mentally incompetent defendants to the custody of the
Attorney General for treatment, without discretion for the
court to order a particular treatment setting.
2. Attorney General and Bureau of Prison Policies

Quintero next asserts that under Attorney General and Bureau
of Prison (BOP) policies, 2 defendants are automatically
hospitalized and that this contravenes her construction of the
statute in violation of the Take Care Clause of Article II and
general separation of powers principles. *1051 See U.S.
Const. art. II, § 3. Quintero offers no particular assessment
of the Take Care Clause or the separation of powers. Rather,
she asserts that the phrase “as is necessary” in § 4241(d)
(1) requires the Attorney General to consider the need for
hospitalization to achieve competency restoration. Because,
in her view, the policies are inconsistent with the statute,
Quintero argues that the Attorney General and BOP have
failed to take care that the statute be faithfully executed. We
find no merit in these arguments.
2

The BOP policies referenced by Quintero are quite
general. “ ‘[H]ospitalization in a suitable facility’
includes the [BOP's] designation of inmates to
medical referral centers or correctional institutions
that provide the required care or treatment.” 28
C.F.R. § 549.41; see also BOP Program Statement
P5070.12, at 6–7 (Apr. 16, 2008) (“[I]nmates
requiring hospitalization by statute ... will be
designated to a Medical Referral Center.”).

Section 4241(d) grants the Attorney General the discretion
to “hospitalize” the defendant for treatment in a “suitable
facility.” The IDRA defines “suitable facility” as treatment
in a “facility that is suitable to provide care or treatment
given the nature of the offense and the characteristics of the
defendant.” Id. § 4247(a)(2). The statute does not enjoin the
Attorney General to choose the least restrictive treatment, a
judgment that would constrain the Attorney General's options
and potentially open this process to endless litigation over the
range of appropriate restorative medical treatments.
Quintero also points to the phrase “as is necessary” in §
4241(d)(1) as constraining the Attorney General's choice
of treatment. This misreads the statute. Section 4241(d)
(1) instructs the Attorney General to hospitalize a mentally
incompetent defendant “in a suitable facility” “for such a
reasonable period of time, not to exceed four months, as
is necessary to determine whether there is a substantial
probability that in the foreseeable future he will attain the
capacity to permit the proceedings to go forward.” 18 U.S.C.
§ 4241(d)(1) (emphasis added). The phrase “as is necessary”
modifies “reasonable period of time,” not “suitable facility.”
It is a temporal limitation, not a mandate to consider the
necessity of inpatient treatment.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Quintero, 995 F.3d 1044 (2021)
21 Cal. Daily Op. Serv. 4181, 2021 Daily Journal D.A.R. 4057

The history of the IDRA supports this conclusion. Congress
enacted § 4241(d) in response to the Supreme Court's
decision in
Jackson v. Indiana, 406 U.S. 715, 92 S.Ct.
1845, 32 L.Ed.2d 435 (1972). Indiana's incompetency statute
authorized indefinite commitment for mentally incompetent
defendants. The Supreme Court held that a defendant “cannot
be held more than the reasonable period of time necessary
to determine whether there is a substantial probability that
he will attain [ ] capacity in the foreseeable future.”
Id.
at 738, 92 S.Ct. 1845. The temporal limitation Congress
added to § 4241(d) remedied this defect in the federal statute.
See

Strong, 489 F.3d at 1061 (“[Section] 4241(d) was

enacted in response to the

Jackson decision and echoed

Jackson’s language.”). The “as is necessary” language
instructs the Attorney General to give individualized
consideration of the period of time—with an outer limit—
necessary to assess and restore competency. Nothing in the
Attorney General's and BOP's policies contravenes § 4241(d).
B. Due Process
Quintero argues that mandatory commitment under 18 U.S.C.
§ 4241(d) raises both substantive and procedural due process
concerns. The Due Process Clause of the Fifth Amendment
mandates that “[n]o person shall ... be deprived of life, liberty,
or property, without due process of law.” U.S. Const. amend.
V. The Due Process Clause “protects individuals against
two types of government action”: violations of substantive
due process and procedural due process.
United States v.
Salerno, 481 U.S. 739, 746, 107 S.Ct. 2095, 95 L.Ed.2d 697
(1987). “[S]ubstantive due process prevents the government
from engaging in conduct that shocks the conscience, or
interferes with rights implicit in the concept of ordered
liberty.”
Id. (internal quotation marks and citations
omitted). Procedural due process requires that, even where
a *1052 deprivation of liberty survives substantive due
process scrutiny, the action “be implemented in a fair
manner.”
Id. (citing
Mathews v. Eldridge, 424 U.S.
319, 335, 96 S.Ct. 893, 47 L.Ed.2d 18 (1976)). Neither of
Quintero's due process challenges has merit.
1. Substantive Due Process
Quintero first argues that mandatory commitment under
§ 4241(d) violates her substantive due process rights.

She claims freedom from confinement before trial is a
“fundamental right” and that we must apply heightened
scrutiny to the custodial provisions of § 4241(d). See
Lopez-Valenzuela v. Arpaio, 770 F.3d 772, 780–81 (9th
Cir. 2014) (en banc).
Pretrial commitment is “a significant deprivation of liberty
that requires due process protection.”
Addington v. Texas,
441 U.S. 418, 425, 99 S.Ct. 1804, 60 L.Ed.2d 323 (1979).
In
Jackson v. Indiana, the Supreme Court addressed
the due process requirements for pretrial commitment for
competency restoration.
406 U.S. at 738, 92 S.Ct. 1845.
Indiana—as did the United States and other states—provided
that mentally incompetent defendants could be confined
indefinitely.
Id. at 731–36, 92 S.Ct. 1845. The Supreme
Court held the Indiana statute was unconstitutional insofar as
it provided for indefinite commitment without “the customary
civil commitment proceeding that would be required to
commit indefinitely any other citizen.”
Id. at 738, 92
S.Ct. 1845. The Court held that a person hospitalized
for competency restoration “cannot be held more than the
reasonable period of time necessary to determine whether
there is a substantial probability that he will attain that
capacity in the foreseeable future” and that “continued
commitment must be justified by progress toward” the goal
of competency restoration.

Id. at 738, 92 S.Ct. 1845.

As we previously noted, 18 U.S.C. § 4241(d) was added to
conform to the Court's holding in

Jackson.

Strong, 489

F.3d at 1061. In
Strong, we held that § 4241(d) complies
with the requirements of due process under the framework
set out in
Jackson. We began from the premise that “the
right to be free from Government confinement ... is the
very essence of the liberty protected by the Due Process
Clause” and that “liberty is the norm, and detention prior
to trial or without trial is the carefully limited exception.”
Id. at 1060 (quoting

Reno v. Flores, 507 U.S. 292,

346, 113 S.Ct. 1439, 123 L.Ed.2d 1 (1993), and
Salerno,
481 U.S. at 755, 107 S.Ct. 2095). First, we found that “the
duration of the defendant's commitment” under § 4241 is
“inherently limited” to “ ‘such a reasonable period of time,
not to exceed four months, as is necessary’ ” to determine
the likelihood of competency restoration.
Id. at 1061–62
(quoting § 4241(d)). Second, we held that in determining

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Quintero, 995 F.3d 1044 (2021)
21 Cal. Daily Op. Serv. 4181, 2021 Daily Journal D.A.R. 4057

whether a “defendant is susceptible to timely restoration,”
there was a “close[ ] ... fit between the commitment and
the purpose for which such commitment is designed.”
Id.
at 1061. We noted that “[s]uch a determination requires a
more careful and accurate diagnosis than the brief interviews
and review of medical records that tend to characterize
the initial competency proceeding.”
Id. at 1062 (internal
quotation marks and citation omitted). We thus rejected
Strong's argument that § 4241(d) violated his substantive due
process rights. 3
3

has undermined our decision in
Strong. Section 4241(d)
only authorizes “hospitaliz[ation] ... in a suitable facility” for
a limited purpose and for “a reasonable period of time.” 18
U.S.C. § 4241(d)(1). Unlike the statute at issue in
LopezValenzuela, persons thought to be mentally incompetent are
entitled to a hearing and an individualized determination
of their competence. Their custody is only temporary and,
if treatment is not successful, may lead to their civil
commitment or even to their release. See
U.S. at 738, 92 S.Ct. 1845.

We also noted that at least three circuits had

Quintero also argues that

rejected similar challenges.

Supreme Court's decisions in

1063 (citing

Strong, 489 F.3d at

United States v. Filippi, 211 F.3d

649, 651–52 (1st Cir. 2000);
United States v.
Donofrio, 896 F.2d 1301,1303 (11th Cir. 1990);
United States v. Shawar, 865 F.2d 856, 864 (7th
Cir. 1989)). Since
Strong, several other circuits
have upheld § 4241 against various challenges. See
United States v. McKown, 930 F.3d 721, 728–30
(5th Cir. 2019); United States v. Dalasta, 856 F.3d
549, 554–55 (8th Cir. 2017);
United States v.
Magassouba, 544 F.3d 387, 406–08 (2d Cir. 2008);
United States v. Ferro, 321 F.3d 756, 761–62 (8th
Cir. 2003).
*1053 Quintero acknowledges our decision in

Strong

but argues that, after our en banc decision in
LopezValenzuela, 770 F.3d 772, “automatic detention for
competency restoration under § 4241(d) violates due process”
because “the statute employs an irrebuttable presumption that
detention is necessary.” According to Quintero,
Strong
is thus no longer binding authority. We are not persuaded.
In
Lopez-Valenzuela we addressed an Arizona statute
that categorically denied bail for aliens present in the
United States illegally who were charged with a felony
offense.

770 F.3d at 775. Applying heightened scrutiny,

we held the statute unconstitutional.

Id. at 780–81 &

n.3.
Lopez-Valenzuela concerned the liberty interests of
a class of defendants who were categorically denied bail
that, but for their alien status, would have been routinely
afforded to them. We fail to see how

Lopez-Valenzuela

107 S.Ct. 2095, and

Jackson, 406

Strong is inconsistent with the
Salerno, 481 U.S. 739,

Sell v. United States, 539 U.S. 166,

123 S.Ct. 2174, 156 L.Ed.2d 197 (2003). 4 Both of those
decisions were issued well before our opinion in

Strong,

and
Strong quoted
Salerno. See
Strong, 489 F.3d at
1060. Accordingly, they are not intervening Supreme Court
authority on which we may rely to overturn the judgment of
a prior panel of this court. See
Miller v. Gammie, 335 F.3d
889, 893 (9th Cir. 2003) (en banc) (“[W]here the reasoning or
theory of our prior circuit authority is clearly irreconcilable
with the reasoning or theory of intervening higher authority,
a three-judge panel should consider itself bound by the later
and controlling authority ....”). Quintero's argument is simply
an effort to re-argue

Strong, but we are bound by it. If

Quintero believes
Strong is wrongly decided, her remedy
lies in rehearing en banc or certiorari.
4

Quintero appears to argue that these cases, together
with
Lopez-Valenzuela, require “proof by clear
and convincing evidence that no less restrictive
alternatives than confinement could reasonably
address the government's interest.” The statement
comes without citation, so we are unsure of
its origin. To be sure, the phrase “clear and
convincing evidence” appears in
Salerno, but
that is the level of proof required by the Bail
Reform Act,

18 U.S.C. § 3142(f), which was

at issue in
Salerno. See, e.g.,
Salerno, 481
U.S. at 742, 750–52, 107 S.Ct. 2095; see also
Lopez-Valenzuela, 770 F.3d at 779–80, 782,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Quintero, 995 F.3d 1044 (2021)
21 Cal. Daily Op. Serv. 4181, 2021 Daily Journal D.A.R. 4057

785 (referring, in each instance, to
Salerno).
We cannot locate the phrase “no less restrictive
alternative” (or some variant) in any of these cases.
In any event, in
Strong we did not set forth a
formal standard of scrutiny. We did use the phrase
“reasonable relation” because that was the standard
the Court used in

Jackson. See

Strong, 489

F.3d at 1061 (quoting
Jackson, 406 U.S. at 738,
92 S.Ct. 1845). Elsewhere we commented on the
“the closeness of the fit” in § 4241(d) “between
the commitment and the purpose for which such
commitment is designed.”
Id.
We take very seriously our obligation to examine
our prior decisions in light of subsequent
developments; we do not lightly overturn one of
our prior decisions. Quintero falls well short of
persuading us that there are grounds to do so in this
case.
In any event, both of those cases dealt with very different
circumstances.
Salerno *1054 rejected a substantive due
process challenge to a Bail Reform Act provision allowing
for case-by-case pretrial detention on the basis of future
dangerousness.

481 U.S. at 746–52, 107 S.Ct. 2095. In the

same vein,
Sell concerned forcible medication to restore
competence for trial, which the Supreme Court subjects
to a higher standard of review due to defendants’ distinct
liberty interest in rejecting invasive medical treatment. 539
U.S. at 177–78, 180–81, 123 S.Ct. 2174; see United States
v. Loughner, 672 F.3d 731, 747–52, 765 (9th Cir. 2012)
(discussing
Sell and distinguishing between commitment
for competency restoration under § 4241(d) and involuntary
medication orders).
Quintero also argues that we should overturn
Strong
because it was based on the “faulty premise ... that
inpatient confinement is always necessary to achieve the
government's interests” and “[r]ecent empirical evidence
refutes the premise underlying
Strong.” We see no such
“premise” in our decision. If there is a premise to be had
here, it is Congress's. Nevertheless, we see no impediment
in the statute to the Attorney General—in his discretion,
not ours—choosing outpatient treatment as the “suitable
facility.” 18 U.S.C. § 4241(d); see id. § 4247(a)(2) (defining
“suitable facility” as “a facility that is suitable to provide

care or treatment given the nature of the offense and the
characteristics of the defendant”). Even if there is recent
empirical evidence confirming the effectiveness of outpatient
treatment, we cannot revisit

Strong.

Finally, Quintero points us to a recent decision of the Georgia
Supreme Court. See
Carr v. State, 303 Ga. 853, 815
S.E.2d 903, 914–16 (2018). Even if we thought that decision
persuasive, we are not bound by state court decisions. We
are bound by our decision in
Strong, and reaffirm that §
4241(d) does not violate Quintero's substantive due process
rights.
2. Procedural Due Process
Quintero argues that mandatory commitment under § 4241(d)
violates procedural due process because the statute does not
provide a sufficient adversarial hearing prior to commitment.
Relying on
Vitek v. Jones, 445 U.S. 480, 100 S.Ct. 1254,
63 L.Ed.2d 552 (1980), she asserts that a pre-deprivation
adversarial hearing specifically addressing the necessity of
confinement is warranted and that the court must make a
finding that outpatient programs are inadequate because §
4241(d) creates an expectation that a defendant will not be
committed to an inpatient facility unless it is both “suitable
and necessary.” We hold that § 4241(d) provides sufficient
procedural safeguards prior to commitment, and thus her
commitment does not violate procedural due process.
A “civil commitment for any purpose constitutes a significant
deprivation of liberty that requires due process protection.”
Addington, 441 U.S. at 425, 99 S.Ct. 1804. “When
government action depriving a person of life, liberty, or
property survives substantive due process scrutiny, it must
still be implemented in a fair manner.”
Salerno, 481
U.S. at 746, 107 S.Ct. 2095. The constitutional process
due depends upon “the extent to which [the individual]
may be condemned to suffer grievous loss, and depends
upon whether the [individual's] interest in avoiding that
loss outweighs the governmental interest in summary
adjudication.” Goldberg v. Kelly, 397 U.S. 254, 262–63, 90
S.Ct. 1011, 25 L.Ed.2d 287 (1970) (internal quotation marks
and citation omitted); see
S.Ct. 893.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Mathews, 424 U.S. at 332, 96

6

United States v. Quintero, 995 F.3d 1044 (2021)
21 Cal. Daily Op. Serv. 4181, 2021 Daily Journal D.A.R. 4057

To determine whether a pre-deprivation procedure comports
with due process, we consider: “(1) the private interest
affected; (2) the risk of an erroneous deprivation of
that interest and the probable *1055 value of additional
procedural safeguards; and (3) the government's interest
including the function involved and the burdens that
additional procedural requirements would place on the state.”
Hickey v. Morris, 722 F.2d 543, 548 (9th Cir. 1983) (citing
Mathews, 424 U.S. at 335, 96 S.Ct. 893).
We hold that § 4241(d) appropriately balances those interests.
First, we recognize that a pretrial defendant has a significant
liberty interest in avoiding pretrial confinement, including
civil commitment. See

Addington, 441 U.S. at 425–26, 99

S.Ct. 1804; see also
Humphrey v. Cady, 405 U.S. 504,
509, 92 S.Ct. 1048, 31 L.Ed.2d 394 (1972). Even if not a
punitive measure, commitment for evaluation and treatment
of mental conditions is a physical restraint on liberty and
may come with its own social stigma. Indeed, the Court has
held that even a convicted inmate is entitled to some process
before he may be transferred to a mental facility, because such
hospitalization is “qualitatively different from the punishment
characteristically suffered by a person convicted of a crime.”
Vitek, 445 U.S. at 493, 100 S.Ct. 1254.
Second, the government has a strong interest in these
proceedings. It has charged a defendant such as Quintero with
violation of federal law. It has an obligation to try a defendant
expeditiously, see U.S. Const. amend. VI;
18 U.S.C. §§
3161–3174 (Speedy Trial Act), or release the defendant. It
may not try a defendant who cannot aid in his own defense,
see

Pate v. Robinson, 383 U.S. 375, 378, 86 S.Ct. 836,

15 L.Ed.2d 815 (1966) (citing
Bishop v. United States,
350 U.S. 961, 76 S.Ct. 440, 100 L.Ed. 835 (1956)), and the
diagnosis may even have a bearing on any affirmative defense
of mental impairment at the time of the crime. If the defendant
cannot be tried because he is unable to aid counsel in his
defense and he cannot be restored to health, the government
may have to release the defendant. See
Jackson, 406
U.S. at 738, 92 S.Ct. 1845. But before the government so
concludes, it has an additional obligation to ensure that the
defendant is not a danger to himself or the public and may
seek civil commitment to protect the public. See
92 S.Ct. 1845.

id. at 733,

Given the strong interests of both the defendant and
the government, “[t]he final, and perhaps most important,
Mathews factor is the risk of erroneous deprivation and
the probable value of additional procedural safeguards.”
Humphries v. Cnty. of Los Angeles, 554 F.3d 1170, 1194
(9th Cir. 2009), rev'd in part on other grounds,
562 U.S.
29, 131 S.Ct. 447, 178 L.Ed.2d 460 (2010). This prong
requires that we examine the procedures provided in the
IDRA and “ask ‘considering the current process, what is
the chance the [government] will make a mistake?’ ”
Id.
We think the risk of error is low. Section 4241 provides
extensive safeguards to ensure that commitment is justified.
When questions first arise regarding competency, the court
must order a hearing “if there is reasonable cause to believe
that the defendant may presently be” incompetent to stand
trial. 18 U.S.C. § 4241(a). Prior to the hearing, the court has
discretion to order psychiatric or psychological examinations
of the defendant and that such reports be filed with the
court. Id. § 4241(b). These exams must be conducted, and
a report prepared, by a licensed or certified psychiatrist
or psychologist, and defendants may request examiners in
addition to those selected by the court. Id. § 4247(b). The
content of the report is specified by the statute and must
include a patient history and present symptoms; a description
of the tests that were employed; the examining psychiatrist's
or psychologist's diagnosis and prognosis; and a conclusion
as to whether the person is suffering from mental impairment
that renders him incompetent *1056 to assist in his defense.
Id. § 4247(c). The report must be followed by a hearing at
which the defendant is required to be represented by counsel,
and for which counsel will be appointed for him “if he is
financially unable to obtain adequate representation.” Id. §
4247(d). At the hearing, the defendant must be afforded
the “opportunity to testify, to present evidence, to subpoena
witnesses on his behalf, and to confront and cross-examine
witnesses who appear at the hearing.” Id. § 4241(c), 4727(d).
After the hearing, the court must find by a preponderance of
the evidence that the defendant is mentally incompetent to
stand trial before committing the defendant to the custody of
the Attorney General. Id. § 4241(d).
As we have previously stated, commitment to the Attorney
General for competency evaluation is durationally limited
to a “reasonable period of time, not to exceed four months,
as is necessary to determine whether there is a substantial
probability that in the foreseeable future [the defendant]
will attain the capacity to permit the proceedings to go
forward.” Id. § 4241(d)(1). Hospitalization may be extended

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

United States v. Quintero, 995 F.3d 1044 (2021)
21 Cal. Daily Op. Serv. 4181, 2021 Daily Journal D.A.R. 4057

for competency restoration “for an additional reasonable
period of time” “if the court finds that there is a substantial
probability that within such additional period of time he will
attain the capacity to permit the proceedings to go forward” or
until the charges are dropped. Id. § 4241(d)(2). The defendant
may “at any time during [his] commitment” request a further
hearing to determine if he should be discharged. Id. § 4247(h).
Finally, 18 U.S.C. § 4241(e) provides additional safeguards
for release upon a restoration of competency.
As we consider these procedural safeguards Congress has
put in place, we are hard pressed to understand what further
procedures are required to reduce the risk of error. A
hearing, attended by counsel, with an opportunity to testify,
to present evidence, to subpoena witnesses, to confront and
cross-examine witnesses, and to seek reconsideration of an
adverse decision is the core of American due process. See
Vitek, 445 U.S. at 494–95, 100 S.Ct. 1254. Nevertheless,
Quintero argues that she is entitled to a “predeprivation
process” to decide if outpatient treatment is suitable. This
is not properly a procedural due process argument, but a
variation on her substantive due process argument, which
we have rejected. Congress has provided ample process for
determining whether a defendant is mentally incompetent and
likely to respond to treatment. The choice of a facility is
within Congress's prerogative.
We have little difficulty holding that mandatory commitment
under § 4241(d) comports with the requirements of
procedural due process.
C. Equal Protection
Quintero raises three arguments under the equal protection
component of the Due Process Clause of the Fifth
Amendment. We examine equal protection claims under a
two-step inquiry, first inquiring whether the petitioner's class
is similarly situated to the claimed disparate group and, if so,
whether the classification is justified. Pimentel v. Dreyfus, 670
F.3d 1096, 1106 (9th Cir. 2012) (per curiam). We will consider
each argument in turn.
Quintero first argues that § 4241(d) denies her equal
protection of the laws because it imposes a less stringent
standard for confinement than the Bail Reform Act,
18
U.S.C. § 3142(e), which governs release or detention of
pretrial defendants. The Bail Reform Act provides in relevant
part:

If, after a hearing ..., the judicial officer
finds that no condition or combination
of conditions will reasonably assure
*1057 the appearance of the person
as required and the safety of any
other person and the community,
such judicial officer shall order the
detention of the person before trial.

18 U.S.C. § 3142(e)(1). Quintero argues that, like
defendants denied bail, she has been confined but, unlike
defendants denied bail, she has not been found to be
dangerous. We think it obvious that the two situations are not
comparable for equal protection purposes. The purposes of
confinement under each statute are not the same:
Section
3142(e) ensures that the defendant appears at trial and does
not endanger the community, while § 4241(d) aims to assess
the potential to restore a defendant to competency to stand
trial. The government has different interests for confinement
of each group, and thus these two classes of defendants may
be subject to different standards related to those interests.
Quintero also argues that mentally incompetent pretrial
defendants are subject to less stringent standards for
commitment than convicted persons who, having served
their sentence, are going to be committed civilly. See 18
U.S.C. § 4246. Section 4246 governs hospitalization of three
classes of mentally impaired persons: (1) convicted persons
whose sentence is about to expire, (2) pretrial defendants
committed to the custody of the Attorney General under
§ 4241(d), and (3) pretrial defendants committed under §
4241(d) whose charges have been dismissed because of their
mental condition. Id. § 4246(a). Section 4246(d) provides:

If, after the hearing, the court finds
by clear and convincing evidence that
the person is presently suffering from
a mental disease or defect as a result
of which his release would create a
substantial risk of bodily injury to
another person or serious damage to
property of another, the court shall

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

United States v. Quintero, 995 F.3d 1044 (2021)
21 Cal. Daily Op. Serv. 4181, 2021 Daily Journal D.A.R. 4057

commit the person to the custody of the
Attorney General.

Again here, the purposes of commitment for persons subject
to each statute differ: Section 4246 is about protecting the
community from a dangerous and mentally ill defendant who
is about to be released, while § 4241(d) aims to ensure an
accurate assessment of competency before trial. Including
an assessment of danger in § 4246 directly addresses the
statute's purpose of protecting the community, but it serves no
purpose in the context of a competency assessment. Section
4246 itself recognizes that persons subject to these statutes
are not similarly situated. Defendants committed pursuant
to § 4241(d) may be subject to § 4246 in some instances
because, although not all defendants committed pursuant to
§ 4241(d) are dangerous, those found dangerous—and who
could be released after the durational limit or through the
other safety valves—are subject to further hospitalization
under § 4246. The consequences also differ: Section 4246
allows for potentially indefinite confinement of a defendant
who has already served her sentence, while § 4241(d) allows
for confinement before trial for only a “reasonable period of
time.” The stricter standard in § 4246 makes sense where
the period of confinement is not so limited and discharge is
conditioned on a finding that the person is no longer a danger.
Id. § 4246(e).
The Supreme Court's decision in
Jackson v. Indiana, 406
U.S. 715, 92 S.Ct. 1845, reinforces our conclusion. In that
case Jackson, who was deaf, mute, and mentally handicapped,
was accused of robbery. Before he could be tried, the court
found him mentally incompetent to aid in his defense and
committed him to the custody of the Indiana Department of
Mental Health until he could be certified as sane. 406 U.S.
at 717–18, 92 S.Ct. 1845. Because Jackson likely could not
be rehabilitated, it was effectively a life sentence. See
id.
at 716, 92 S.Ct. 1845. Although Jackson had *1058 not been
convicted of any crime, the standards for his commitment
and the conditions for his release were stricter than for
similarly situated persons in the general population. The
Court concluded that Indiana's scheme violated the Equal
Protection Clause of the Fourteenth Amendment.
729–30, 92 S.Ct. 1845.

Id. at

not automatically condemn a mentally incompetent defendant
to potentially permanent commitment. Instead, the period of
hospitalization under § 4241(d) is statutorily limited to four
months for assessment and an additional reasonable period of
time if there is a substantial probability that the defendant can
be restored to competence. Release is also mandated where, at
the end of the time period, a “defendant's mental condition has
not so improved as to permit the proceedings to go forward.”
18 U.S.C. § 4241(d). Any further restraint on Quintero's
liberty, such as civil commitment, would be subject to other
statutory and constitutional constraints. Section 4241(d) thus
avoids
Jackson’s concerns with time limits and release
mechanisms.
Finally, Quintero argues that mandatory confinement under §
4241(d) violates her right to equal protection because federal
pretrial defendants are subject to a less stringent commitment
standard than Arizona state defendants. See Ariz. Rev. Stat. §
13-4512(D) (requiring courts to consider a variety of factors
and select the “least restrictive treatment alternative” for
competency restoration). Quintero acknowledges that there is
no equal protection violation where the federal government
treats defendants charged with federal crimes differently
than a state treats defendants charged with state crimes.
United States v. Antelope, 430 U.S. 641, 649, 97 S.Ct.
1395, 51 L.Ed.2d 701 (1977) (“Under our federal system, the
National Government does not violate equal protection when
its own body of law is evenhanded, regardless of the laws
of States with respect to the same subject matter.” (footnotes
omitted)). Nothing else needs be said regarding our dual
sovereignty.
Antelope supplies a complete answer to
Quintero's argument.
D. Fundamental Fairness
Quintero next raises a novel claim that mandatory
commitment violates fundamental fairness and a hybrid due
process/equal protection right recognized by the Supreme
Court in

Obergefell v. Hodges, 576 U.S. 644, 135

S.Ct. 2584, 192 L.Ed.2d 609 (2015), and
Bearden v.
Georgia, 461 U.S. 660, 103 S.Ct. 2064, 76 L.Ed.2d 221
(1983). In
Obergefell the Court observed that “[t]he Due
Process Clause and the Equal Protection Clause” “set forth
independent principles,” although they “are connected in a

Section 4241(d) does not present the same concerns as the

profound way.”

Indiana statute at issue in

Court in

Jackson. Section 4241(d) does

576 U.S. at 672, 135 S.Ct. 2584. The

Bearden noted that in cases concerning indigent

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

United States v. Quintero, 995 F.3d 1044 (2021)
21 Cal. Daily Op. Serv. 4181, 2021 Daily Journal D.A.R. 4057

defendants, “[d]ue process and equal protection principles
converge,” but that most decisions “have rested on an equal
protection framework.”

461 U.S. at 665, 103 S.Ct. 2064.

We need not parse these cases further. In both

Obergefell

and Bearden, the Court considered the convergence of due
process and equal protection rights the Court had previously
recognized. Here, Quintero argues that we should find a
synergy in these clauses that is greater than either of the
clauses individually. But in this case, we have rejected
Quintero's due process and equal protection clause arguments.
We decline to create a new right here that is unsupported
by either the Due Process Clause or the equal protection
component of the Due Process Clause.
E. The Sixth Amendment
Quintero raises a Sixth Amendment challenge to § 4241(d)
for the first *1059 time on appeal. She argues only that
§ 4241(d) could create a conflict of interest for counsel
in some cases, which would be inconsistent with the Sixth
Amendment. She does not argue that her own counsel
was faced with any conflict here. At base, her argument
is that mandatory commitment under § 4241(d) “makes
effective, conflict-free representation impossible in some
circumstances” because defense counsel will face the tension
between “[d]ooming” a client to lengthy hospitalization
and allowing an incompetent client to stand trial. Because
Quintero did not raise a Sixth Amendment claim before the
district court, we review her claim for plain error.
United
States v. Olano, 507 U.S. 725, 730–36, 113 S.Ct. 1770, 123
L.Ed.2d 508 (1993); see Fed. R. Crim. P. 52(b). To succeed,
she must demonstrate that

(1) there is an error; (2) the error
is clear or obvious, rather than
subject to reasonable dispute; (3)
the error affected [her] substantial
rights, which in the ordinary case
means it affected the outcome of
the district-court proceedings; and
(4) the error seriously affected the
fairness, integrity, or public reputation
of judicial proceedings.

United States v. Walter-Eze, 869 F.3d 891, 911 (9th Cir.
2017) (citation omitted).
The Sixth Amendment guarantees defendants the right to
“effective assistance of counsel,” which includes “a duty
of loyalty” and “a duty to avoid conflicts of interest.”
Strickland v. Washington, 466 U.S. 668, 686, 688, 104
S.Ct. 2052, 80 L.Ed.2d 674 (1984). However, “a reviewing
court cannot presume that the possibility for conflict has
resulted in ineffective assistance of counsel.”
Cuyler v.
Sullivan, 446 U.S. 335, 348, 100 S.Ct. 1708, 64 L.Ed.2d 333
(1980). The Sixth Amendment protects defendants only from
actual conflicts of interest—not every potential conflict that
could arise.
Wheat v. United States, 486 U.S. 153, 159–
60, 108 S.Ct. 1692, 100 L.Ed.2d 140 (1988). Thus, mere
allegations of a potential conflict of interest are insufficient to
demonstrate a violation of the Sixth Amendment.
United
States v. Hearst, 638 F.2d 1190, 1194 (9th Cir. 1980).
At the outset, Quintero's failure to allege or demonstrate any
actual conflict of interest for her counsel dooms her argument.
Quintero has not shown—or even alleged—an actual conflict
of interest in her counsel's representation. Quintero initiated
the competency proceedings here, and she does not argue that
her counsel filed the motion for competency determination
against her wishes. Mandatory commitment does not violate
her Sixth Amendment right to conflict-free representation.
In any event, § 4241(d) does not violate the Sixth
Amendment. Defense counsel has “a duty to investigate a
defendant's mental state if there is evidence to suggest that
the defendant is impaired.” Douglas v. Woodford, 316 F.3d
1079, 1085 (9th Cir. 2003). A failure to raise competency
with the court may deprive a defendant of effective assistance
of counsel. Stanley v. Cullen, 633 F.3d 852, 862 (9th Cir.
2011). But the possibility that counsel's client may have to
be hospitalized to verify her mental competence does not
present a real conflict of duties: temporary confinement is a
consequence of counsel's duty to raise the mental stability of
his client. Moreover, not every dilemma presents a conflict of
constitutional dimensions. Counsel often faces difficult and
consequential choices in determining trial strategy: whether to
cross-examine certain witnesses; whether to raise objections
in front of the jury; whether to raise certain affirmative
defenses, including an insanity defense; and whether to
mount a defense at all, or rest on the government's burden

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

United States v. Quintero, 995 F.3d 1044 (2021)
21 Cal. Daily Op. Serv. 4181, 2021 Daily Journal D.A.R. 4057

of proof. The fact that counsel has to make *1060 hard
choices, and may be subject to second-guessing by postconviction counsel, is not evidence of a conflict created
by the law. Although an increased sentence resulting from
deficient performance by counsel prejudices a defendant and

competency, United States v. Frank, 956 F.2d 872, 875 (9th
Cir. 1991). Even if we thought the Excessive Bail Clause had
some bearing on our decision, these are not sufficient reasons
for disapproving the scheme laid out in the IDRA.

violates the Sixth Amendment,
Glover v. United States,
531 U.S. 198, 200, 121 S.Ct. 696, 148 L.Ed.2d 604 (2001),
temporary pretrial hospitalization to assess competency is
not a sentence. Pretrial detention provisions are regulatory,

G. Disability Law
In her final challenge, Quintero argues that mandatory
commitment pursuant to § 4241(d) violates the Rehabilitation

not punitive.
Salerno, 481 U.S. at 747, 107 S.Ct. 2095
(finding that pretrial detention under the Bail Reform Act was
regulatory, not punitive).
We hold that mandatory commitment under § 4241(d) does
not violate the Sixth Amendment.
F. The Eighth Amendment
Quintero next argues that mandatory confinement of
incompetent defendants pursuant to § 4241(d) violates the
Eighth Amendment's prohibition of “[e]xcessive bail.” U.S.
Const. amend. VIII. We are unsure why the Excessive Bail
Clause is even relevant here. Quintero does not seek bail in
this proceeding. We think that Quintero has attempted to draw
a principle from that Clause that there must be a “weighing of
individual factors” and a “constitutional presumption in favor
of release.” Like her other constitutional claims, Quintero's
excessive bail argument falls short.
The Bail Reform Act “requires the release of a person facing
trial under the least restrictive condition or combination of
conditions that will reasonably assure the appearance of
the person as required and the safety of the community.”
United States v. Gebro, 948 F.2d 1118, 1121 (9th Cir.
1991). So “when Congress has mandated detention on the
basis of a compelling interest other than prevention of
flight, ... the Eighth Amendment does not require release on
bail.”

Salerno, 481 U.S. at 754–55, 107 S.Ct. 2095.

The government has a compelling interest in ensuring
competence for trial. It has both a “substantial interest in
timely prosecution” and a “concomitant, constitutionally
essential interest in assuring that the defendant's trial is
a fair one.”
Sell, 539 U.S. at 180, 123 S.Ct. 2174.
The government may not convict a mentally incompetent
defendant,
Robinson, 383 U.S. at 378, 86 S.Ct. 836,
and it bears the burden of demonstrating the defendant's

Act,

29 U.S.C. § 794(a), and the Americans with

Disabilities Act,

42 U.S.C. § 12132, both of which prohibit

discrimination on the basis of disability. 5 She further claims
that mandatory *1061 commitment violates the proscription
against unjustified isolation of the disabled set out by the
Supreme Court in
Olmstead v. L.C. ex rel. Zimring, 527
U.S. 581, 597, 119 S.Ct. 2176, 144 L.Ed.2d 540 (1999).
Quintero cites no authority which permits her to assert these
civil claims within the context of her interlocutory criminal
appeal. If Quintero wishes to assert and develop these legal
theories, she must do so in the context of a civil cause of
action. We therefore decline to reach the merits of these
arguments here.
5

The Rehabilitation Act provides in relevant part:
No otherwise qualified individual with a
disability in the United States ... shall, solely
by reason of her or his disability, be excluded
from the participation in, be denied the benefits
of, or be subjected to discrimination under any
program or activity receiving Federal financial
assistance or under any program or activity
conducted by any Executive agency ....
29 U.S.C. § 794(a). The Department of
Justice's (DOJ) Rehabilitation Act implementing
regulations provide that DOJ “shall administer
programs and activities in the most integrated
setting appropriate to the needs of qualified
handicapped persons.” 28 C.F.R. § 39.130(d).
These implementing regulations apply “to all
programs or activities conducted by” DOJ. 28
C.F.R. § 39.102.
Title II of the ADA provides that “no qualified
individual with a disability shall, by reason of such
disability, be excluded from participation in or be
denied the benefits of the services, programs, or
activities of a public entity, or be subjected to

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

11

United States v. Quintero, 995 F.3d 1044 (2021)
21 Cal. Daily Op. Serv. 4181, 2021 Daily Journal D.A.R. 4057

discrimination by any such entity.”
12132.

42 U.S.C. §

alternative outpatient evaluation. We affirm the district court's
commitment order.
ORDER AFFIRMED.

IV. CONCLUSION
The district court here properly found Quintero incompetent
to stand trial and ordered her committed to the custody
of the Attorney General for inpatient assessment and
treatment. The district court did not have discretion to order
End of Document

All Citations
995 F.3d 1044, 21 Cal. Daily Op. Serv. 4181, 2021 Daily
Journal D.A.R. 4057

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

12

Appendix B

Case: 19-10300, 07/06/2021, ID: 12164234, DktEntry: 69, Page 1 of 1

FILED
JUL 6 2021

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

No.

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

19-10300

D.C. No.
4:17-cr-01895-JAS-LAB-1
District of Arizona,
Tucson

SONIA QUINTERO,
Defendant-Appellant.

ORDER

Before: TALLMAN, BYBEE, and BADE, Circuit Judges.
Defendant-Appellant Sonia Quintero’s Motion to Stay the Mandate, filed
July 2, 2021, is DENIED.

